HHS/OIG, Audit -"Ryan White Title I Funds Claimed by a Hospital Contracting with the Miami-Dade Eligible Metropolitan
Area During the Fiscal Year Ended February 28, 2002,"(A-04-03-01013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by a Hospital Contracting with the Miami-Dade Eligible Metropolitan Area During the
Fiscal Year Ended February 28, 2002," (A-04-03-01013)
October 7, 2004
Complete
Text of Report is available in PDF format (973 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the Miami-Dade Eligible Metropolitan Area, managed by
the Miami-Dade County Office of Management and Budget’s (Budget Office), ensured that its contractor, South Shore
Hospital and Medical Center (South Shore), provided the expected program services and followed Federal requirements for
charging costs.  The Budget Office did not ensure that South Shore complied with Federal cost principles in managing
its contract.  This occurred because the Budget Office did not provide appropriate fiscal monitoring, and South Shore’s
accounting records did not support the costs reported to the Budget Office.  As a result, the Budget Office had little
assurance that the $936,285 reimbursed to South Shore was used as intended to serve HIV/AIDS clients.  We recommended
that the Budget Office improve its fiscal monitoring system and ensure South Shore implement accounting procedures and
a time and effort reporting system to properly record CARE Act Title I costs.  In addition, the Budget Office should
work with South Shore to determine its CARE Act Title I costs for fiscal year 2001 to the present, and request that South
Shore refund $8,300 it overstated in the final cost report.  Both the Budget Office and South Shore generally concurred
with our findings and recommendations and both are taking corrective actions to improve their CARE Act Title I programs.